No. 20-

Supreme Court of the United States

 

AMARIN PHARMA, INC. AND
AMARIN PHARMACEUTICALS IRELAND LIMITED,
Petitioners,
Vv

HIKMA PHARMACEUTICALS USA INC., HIKMA
PHARMACEUTICALS INTERNATIONAL LIMITED,
Dr. REDDY’S LABORATORIES, INC., AND DR. REDDY’S LABORATORIES, LTD.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Seth P. Waxman, a member of the
bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,106 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

Executed on February 11, 2021.

SETH P. WAXMAN

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue NW

Washington, DC 20006

(202) 663-6000

seth.waxman@wilmerhale.com
